No. 19-876
In The

Supreme Court of the United States

FERNANDO A. RAMIREZ
Petitioner,
v.

DAVE HOUGE and ROD DIDIER,
Respondents,

On Petition For A Writ Of Certiorari
To The Supreme Court State Of North Dakota

PETITION FOR REHEARING

Fernando Alberto Ramirez Diaz
1615 Western Park Vlg.
Jamestown, ND 58401
fard822@aol.com
Tel: 701 269 7910

RECEIVED
APR 1 6 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

1

TABLE OF CONTENTS

Page
1

TABLE OF CONTENTS.

ii

TABLE OF AUTHORITIES.

1

PETITION FOR REHEARING.

1

REASONS FOR GRANTING THE PETITION.

1

I.

JAMESTOWN POLICE DEPARTMENT Official Report.

6

II.

TESTIMONY OF THE ANIMAL CONTROL POLICE OFFICER

7

III. POLICE PROCEDURE IN THE MATTER OF ANIMALS.

8

IV. This Court Should Not Resolve the Substantial and Important Factual
Issues in this Case Without Full Briefing and Argument.

11

CONCLUSION.

11

TABLE OF AUTHORITIES
Page.

CASES.

10

Schweiker v. Hansen, 450 U.S. 785, (1981).

STATUTES
Page.
8

18 U.S.C. § 201

MISCELLANEOUS
Page.
3

Brief of Defendant, page 12. No, 38.

3

Reply Brief of Plaintiff, page 9, No. 47.

1
PETITION FOR REHEARING

Pursuant to Supreme Court Rule 44.1, Fernando A. Ramirez respectfully petitions
for rehearing of the Court's by decision issued on March 23, 2020. Ramirez v.
Houge, et al. No. 19-876. Ramirez moves this Court to grant this petition for
rehearing and consider his case with merits briefing. Pursuant to Supreme Court
Rule 44.1, this petition for rehearing is filed within 25 days of this Court's decision
in this case.

REASONS FOR GRANTING THE PETITION

The petitioner promptly denounced the irregularities presented within the process
and that are against the law. The state courts were aware of the facts and with the
evidence clearly visible both in the Appendix that includes everything that was
done in the district court, plus the transcript. There is then sufficient evidence that
falsification and destruction of the record in a public document denounced by
Ramirez, is a real and true fact. But another very different situation is that the
state courts having such information do absolutely nothing about it. This is why the
petitioner can prove that the discrimination was not alien to his case.
To this end, the petitioner will show another path present in the process and that
was also in the fight of the state courts. Rehearing is appropriate for this Court to
consider the following substantial facts:

I. JAMESTOWN POLICE DEPARTMENT. Official Report

Because in the Appendix (Everything done in the district court), there is an

2

OFFICIAL document from the Jamestown police, (App page 127), which in addition
to being important, constitutes as EVIDENCE, which shows that FALSIFICATION
AND DESTRUCTION OF RECORD IN PUBLIC DOCUMENT and
DISCRIMINATION, denounced by the petitioner is a real and true fact.

This police document is a support for what is written on pages 29 and 30 of the
document "PETITION FOR A WRIT OF CERTIORARI". And it can also be
considered as a continuation of "THE PLAN AND STEPS TO FOLLOW" which
starts on page 4, The following then continues as numeral 11 and STEP 11:

11. After Houge manages to ELIMINATE the existing RECORD in the police, his
own, Didier's (Respondents) and Ramirez's (Petitioner), including the letters,
the next step is to ask the Chief of Police for a record.

STEP 11.
The document that appears in Appendix page 127, and that was entered as
"DEFENDANT'S EXHIBIT 2" says:

JAMESTOWN POLICE DEPARTMENT

The police department has no record of and I have no knowledge of letters
sent by Mr Ramirez regarding the cat issues in Western Park Village...
Sincerely,
// s.
Scott Edinger
Chief of Police. “

3

However, Houge alters the issue date of this document, and puts an earlier date on
it. This is easy to discover because on appendix page 37, Houge sends the court a
response document, he still does not have a lawyer and in that document he does
not mention anything about it nor does he append it.
This document from the Chief of Police, supports what is written in this section
page 29 that says:

“Houge’s lawyer asks Ramirez, who after knowing the CALL FOR SERVICE, if he
made any request to obtain them. (BRIEF OF DEFENDANT, page 12, numeral 38
and onwards).
Ramirez responds to the court. (REPLY BRIEF OF PLAINTIFF. Page 9, numeral
47).
“The CALL FOR SERVICE, were altered from the same database of the
police, this includes that the printing date is also modified.”

The support of this answer is because when the fraud is discovered, the petitioner
asks the police for ALL CALL FOR SERVICE, related to the cats that were
delivered by:
a.

Didier to the police, (Trans. Page 53, ruler 17-24).

b.

More related when the animal control officer, reported in the Trial, that in
addition to those she was presenting, there were others, (trans. Page 75, ruler
15).

c.

But the cats that were delivered by Houge to the police,

d.

But the ones he delivered between June 2017 to February 2018.

The next day, Ramirez is called by the police, to inform him that those CALL FOR

4
SERVICE, which he is requesting, DO NOT EXIST IN THE RECORD. “

So there is no contradiction between the police officer who attended Ramirez and
the Chief of Police.
One of the main reasons why Houge begins destroying police records is because
when he turned over part of Ramirez's cats in late January 2018 to the police, one of
the cats named Vicka, she has the hip permanently damaged and this the petitioner
reported to the officer; Currently, animal abuse is already considered a federal
crime.
Ramirez knows that it was Houge who delivered the cats to the police, because on
the day of the delivery, the animal control officer revealed it verbally. (App. Page
29). Please note that this information is in the public domain. And this is registered
in a CALL FOR SERVICE, document that for those days, the petitioner ignores that
they exist; It is also clarified that the petitioner does not yet know the name of his
neighbor (Dave Houge), which is why, in the document, Ramirez identifies him as a
"cat hunter".
One of the ways the petitioner shows the court that his cats were hunted by Houge
is because the letter dated January 31, 2018. (App. 28), was EXPOSED to the
animal control officer, and two weeks later, that the petitioner meets the officer
again, she said absolutely nothing against the letter or that any correction should
be made. (App. 29). Therefore, as it appears in the letter that Houge or cat hunter is
responsible for handing the cats over to the police, this matter is ACCENTED as
true and true.

Here is the importance, that an OFFICIAL document, such as CALL FOR
SERVICE, appears and can be attached in the process. This was the interest of the

5
petitioner to request these documents before the police department, (After the Trial
occurred, which is when Ramirez finds out for the first time, what the CALL FOR
SERVICE are really and how important this document is.), to officially emphasize
that Houge was the one who delivered Ramirez's cats to the police.

But it happens that Houge has gone ahead and has erased all this information from
the police data system. And the CALL FOR SERVICE that Houge delivered on the
day of the Trial, EVERYTHING IS CORRUPT.

As an added bonus, Houge and his attorney have illegally contacted the animal
control officer to speak up for him (App. 98 and Trans. Page 69, ruler 10), says
Houge's lawyer:

"And for the record, have you been subpoenaed to testify by the
defendants; is that correct?"

It is a requirement that the participation of a police officer before a court is
primarily NEUTRAL.

What the officer did was indicate to the court that there may be more hunters in the
city. Precisely, this is the importance of a CALL FOR SERVICE, which does not
give rise to SPECULATION, because in this document you will find the name of the
cat hunter, date and the name of the owner who is going to pick it up.

Just as the CALL FOR SERVICE were modified in their content, and in some the
dates of occurrence of the events, they were also modified, including the date of

6

printing. It happens that in this letter sent by the Chief of Police, the date was also
modified.

II. TESTIMONY OF THE ANIMAL CONTROL POLICE OFFICER.

Note: The Animal Control Officer recognizes Houge as an active hunter. This is
recorded in (Trans page 73, ruler 3 - 9), it says:

”Q. Officer Johnson, did you receive communication from Dave houge
regarding the animals, particularly the cats on your property, at WPV?

"A. Yes, Throughout the years that I have been.”

and (Trans page 74, ruler 6 - 10), it says:

”Q. and did Mr. Houge contact the police department about cats that were
trapped in his trap?

A. Yes. I've picked up several times from Mr. Houge's residence to cat that
has been caught in a trap.”

The animal control officer also recognizes and knows about Ramirez's letters
delivered to the police. (Trans. Page 77, ruler 23, 24 and 25; page 78, ruler 1, 2 and
3).

7

III. POLICE PROCEDURE IN THE MATTER OF ANIMALS.

The response that the police gave to Didier (Trans, page 53, ruler 17 - 24.)

"And before borrowing Mr. Houge's trap, did you report animals at large or
cats in particular coming into your property?”

”Yes, I did. I called the police department."
"They told me to trap them. They don't trap them themselves, but it I
trapped them, they were more than willing to come and retrieve the
animals."

Very important, the police do no pick up cats on their own. It is a cat hunter who
has to call the police department, to report a hunted cat and that way, the police
will go to pick up the cat. This is recorded in a CALL FOR SERVICE.
In addition to this, it also has the name of the person who owns the cat that will
retrieve it. and finally a police officer who delivers the cat, reports the case as
"closed".

An example of CALL FOR SERVICE that brings all these elements. (App. 109 and
110).
That the CALL FOR SERVICE and letters related to the cats of Ramirez, Houge
and Didier have been removed from the police record, is proof that alerts of the
existence of a "someone" who has the ability to DESTROY or MODIFY material or
information in documents of public interest.

8

As for the animal control officer, on the day of the Trial she made it known to her
about the existence of that information, but what the officer did not know is that all
that record was erased from the system.

IV. This Court Should Not Resolve the Substantial and Important Factual
Issues in this Case Without Full Briefing and Argument.

1. Any statement given by the petitioner in the Trial, as his material provided in
the duration of the process, was not refuted.
In this case, the uncontested statement in the civil bench trial, which was made
in January, 2019, and which the petitioner then had to present evidence to
support his statement, after realizing that the CALL FOR SERVICE presented
by Houge has serious irregularities and Inconsistencies, these evidences were
also not refuted by the counterpart, who could respond, but did not. (App. 128
and 131 - 150).

2. Houge had a plan to declare himself a temporary cat hunter, but the same
animal control officer gave him away, stating that he had been hunting for many
years and that he is currently an active hunter. (Trans page 73 and 74).
During the Trial, the petitioner, without knowing what Houge's intention was,
stated that he had known Houge hunting cats since he arrived in Jamestown in
2011. (Trans. Page 16, ruler 21 - 23).

3. Improper contact with a police officer, to speak in favor of Houge, is the same as
asking him to renounce true testimony, this fact is prohibited by 18 U.S. law.
Code § 201 - Bribery of public officials and witnesses.

9
However, not everything is perfect, it is evident that Houge forgot to give details
of his plan to declare himself as a temporary hunter. But a damage to the
process if it occurred, The animal control officer declaring that there may be
more hunters created an uncertainty. Which is the opposite of the role that every
police officer must fulfill, when summoned for questioning, which is to be
truthful and direct. As an example is CALL FOR SERVICE (App. 107 and 108),
which was not modified, because it has nothing to do with the petitioner. In it
appears:
Cat Hunter's Name: Houge Dave
The cat owner's name: Mccabe Carrie.
And many other attached data.
This shows that the animal control officer was contacted illegally, so that she did
not say that Houge was the one who delivered Ramirez's cats, but at the same
time with a great impediment, not being able to adjudicate this matter to
another person, for the simple reason That hunter other than Houge simply does
not exist. Well no one in his five senses is going to blame himself for what he has
not done.
This reflects the serious damage done when CALL FOR SERVICE (original) are
modified and others destroyed. Because this document, due to its elaboration,
does not give rise to speculation.

4. The CALL FOR SERVICE (original) exist, they are a real and true fact declared
by Rod Didier himself and the animal control officer.
But on the day of Trial, Houge appears with only three (3) CALL FOR SERVICE
in which they only appear with his name, (App. Page 101, 103 and 107), to carry
out his plan to appear only as a hunter temporary. This is irrefutable proof that

10
Houge is severely compromised in the disappearance and modification of the
true and original CALL FOR SERVICE, that for the number of years he has
been hunting cats and turning them over to the police, it must be a very high
number.
It is then confirmed by the police officer and the Chief of police that such records
requested by Ramirez, related to Houge, Didier and the petitioner himself, do
not exist in the database of the police department.
At the moment Houge is the one who has the knowledge or knows "someone"
who can destroy material and information of public interest.

5. This claim was brought before state courts to have dealt with this matter, but
they did not, offering unequal justice, this Court should grant rehearing so that
it may have the benefit of full merits briefing and argument.

These are precisely the type of factual issues that need to be resolved in full
briefing and argument and for this reason, rehearing is appropriate. See
Schweiker v. Hansen, 450 U.S. 785, 791 (1981) (Marshall, J., dissenting)
(summary disposition only appropriate in cases where "law is settled and stable,
the facts are not in dispute, and the decision below is clearly in error").

It is then, as a last resort, for the supreme court of the United States, to act
before this scourge, that the alteration or modification and destruction of records
in documents of interest and public domain be strictly prohibited, which if not
done, may in the Present and future ruin other claims of any other American
citizen, undermining the merit of justice.

11
CONCLUSION

El petitioner respectfully requests that this Court grant the petition for rehearing
and order full briefing and argument on the merits of this case.

Respectfully Submitted,

Dated this April 7, 2020.

Fernando A. Ramirez
1615 Western Park Vlg.
Jamestown, ND 58401
(701) 269 7910
fard822@aol.com

